No.
IN THE

SUPREME COURT OF THE UNITED STATES
David BRENNAN
Petitioner
vs.

WHITE COUNTY, ARKANSAS
Respondent
AFFIDAVIT OF COMPLIANCE
I, David Brennan, declare under penalty of penury that the following is true
and correct.
As required by Supreme Court Rule 33.1(h), I certify that the Petition for
Writ of Certiorari contains 3,709 words, excluding the parts of the petition that are
exempted by Supreme Court Rule 33.1(d). The petition was prepared in Apache
Open Office 4.1.5 in 12-point Century font with 10-point footnotes, and the word
count was obtained using the software's word count tool.
Respectfully submitted

David Brennan
1200 Curd Drive, lot 8
Searcy, AR 72143
MagicGritsLegal@gmail.com

1

VERIFICATION
STATE OF ARKANSAS )
)ss.

COUNTY OF WHITE

)

On this day personally appeared before me, the undersigned, a Notary Public
within and for the County and State aforesaid, duly commissioned, qualified and
acting, David Brennan, to me well known or satisfactorily proven, and
acknowledged that he had executed the foregoing Affidavit in my presence.
WITNESS my hand and seal as such Notary Public this 5th day of
September, 2019.

o

/<&OT

L-U.
Notary Public

2

